No. 19-331
lNTHE

~upreme Qtourt of tbe Wniteb ~tates
SEQUOIA CAPITAL OPERATIONS, LLC; TCV V, L.P.,

v.

Petitioners,

JESSICA GINGRAS, ON BEHALF OF HERSELF AND OTHERS
SIMILARLY SITUATED; ANGELA C. GIVEN, ON BEHALF OF
HERSELF AND OTHERS SIMILARLY SITUATED,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that three copies of
Petitioner's Reply in Support of Petition for Writ of Certiorari in Sequoia Capital
Operations, LLC v. Gingras, No. 19-331, were served via overnight mail on all parties
required:
Kathleen M. Donovan-Maher
BERMAN TABACCO

One Liberty Square
Boston, MA 02109
(617) 542-8300
kdonovanmaher@bermantabacco.com

Matthew B. Byrne
GRAVEL & SHEA PC
76 St. Paul Street
7th Floor
Burlington, VT 05402
(802) 658-0220
mbyrne@gravelshea.com

Counsel for Respondents
I declare under penalty of perjury that the foregoing is true and correct.

Date: December 19, 2019

Todd R. Geremi~

